OIG Investigative Reports, Director of Milwaukee's New Hope Institute of Science and Technology Charter School Indicted for Embezzlement
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
United States Attorney
Eastern District of Wisconsin
517 East Wisconsin Avenue
Milwaukee, WI 53202
Phone: (414) 297-1700
TTY: (414) 297-1088
Director OF Milwaukee's New Hope Institute of Science and Technology Charter School Indicted for Embezzlement
January 23, 2008
United States Attorney Steven M. Biskupic announced today that a grand jury returned a
two-count embezzlement indictment against Rosella Tucker, the Director of Milwaukee's New Hope
Institute of Science and Technology Charter School, 3500 West Center Street, Milwaukee. Tucker,
54, is a resident of Milwaukee.
The indictment alleges that in 2003, Tucker established New Hope Institute of Science and
Technology (NHIST), after being granted a charter by the Milwaukee Board of School Directors.
NHIST was established as a subsidiary of Tucker's umbrella corporation, New Hope Child
Development Center (NHCDC), which also included her voucher school, Tucker Institute of
Learning. Tucker served as the director of both NHIST and NHCDC..
As a charter school, NHIST received federal monies in the form of Title I funding through
the Milwaukee Public Schools. NHIST also received federal monies in the form of Title V funding
through the Wisconsin Department of Public Instruction. Both Title I and Title V funding are based
on the Elementary & Secondary Education Act of 1965, as amended. The indictment alleges that
from 2003 to 2005, Tucker embezzled over $300,000 in funds from NHIST.
In 2006, MPS closed NHIST for failure to meet its financial obligations.
The indictment charges two counts of theft of monies from a program receiving federal
funds, in violation of 18 U.S.C. § 666. As to each count, Tucker faces a maximum of 10 years
imprisonment.
This matter was investigated by agents from the Federal Bureau of Investigation and the
United States Department of Education. The case has been assigned to Assistant United States
Attorney Tracy M. Johnson for prosecution.
The public is warned that an indictment is merely a method by which to charge an individual
with criminal conduct. But the defendant is presumed innocent until proven guilty.
# # #
For Additional information contact:
First Assistant United States Attorney Michelle L. Jacobs
(414) 297-1700
Top
Printable view
Share this page
Last Modified: 01/29/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov